^j) ps{
^ ■ v

S3

/

r

No..

In The
Supreme Court of the United States
Antoine Moseley
Petitioner
v.
The People of the State of Illinois
Respondents)

On Petition for Writ of Certiorari
To the United States Court of Appeals for the 7th Circuit
PETITION FOR WRIT OF CERTIORARI

Antoine Moseley
#M05986/Prose
Taylorville C.C.
1144 IL. Rt 29

hrv

}
Questions Presented

1. Double Jeopardy: Pages

4

^ ^

Whether there were post-acquittal fact-finding
proceedings going to guilt or innocence of count 3 and
count 4 that shared identical statutory elements.
Exposing the petitioner to a second jeopardy which
violates the first protection of the double jeopardy
clause. In violation of petitioner’s right to due process,
as guaranteed by the United States Constitution, 5th and
14th Amendments.

2. Prosecutorial Misconduct: Pages

f

2*. *7

Whether the prosecutor failed to disclose two oral
statements from two of its chief witnesses (the medical
expert and the alleged victim) not allowing the
petitioner to make an informed decision before waiving
his constitutional rights to a jury trial, and selecting to
take a bench trial as a result of the state withholding
those two undisclosed oral statements. In violation of
the petitioner’s right to due process, as guaranteed by
the U.S. Constitution, 5th and 14th Amendments.

3. Insufficient evidence: Pages

2.2-31

Whether the evidence at trial was insufficient. When the
trial court created its own theory of why the petitioner
allegedly assaulted Doe. Due to which the state nor the
defense ever argued this erroneous theory at trial. This
is despite the trial court previously ruling during
cross-examination of the alleged victim, that the alleged

V
>•«

*

victim’s testimony will stand, which reflected the court’s
theory never existed. In violation of the petitioners right
to due process, as guaranteed by the U.S. Constitution,
5th and 14th Amendments.

List of parties
[V] All parties appear in the caption for the case on the
cover page.
..............

/

Table of Contents
Questions
presented.................................................................. -page (i)
List of parties........................................................... page (ii)
Table of
authorities................................................................ .page (iii)
Opinions Below......................................................... ...page 1
Jurisdiction............................................................... page jL
Constitutional and Statutory Provisions Involved
page i
Statement of the case:.............................................
page 2,-Y
Reasons for Granting the Writ
5-31
The Reasons relied on for the allowance of the Writ Rule 10
and 14.1 (h).................................................
..page 5-L
A. Issue #1: Double Jeopardy.............
...page
13
B. Issue #2: Prosecutorial misconduct
.page
1
C. Issue #3: Insufficient Evidence......
page 2$-2 1
Conclusion...................................................
.page 21-J 2L
Appendix
(1) Decisions of the U.S. Court of Appeals for the 7th
Circuit
Section A
(2) Decisions of the U.S. District Court for the Northern
Section B
District of Illinois
(3) Decisions of the Illinois State Supreme
Section C
Court................................................
(4) Decisions of the Illinois State Appellate Court 1st Judicial
Section D
District
(5) Decisions of the Circuit Court of Cook County (Chicago,
Section E
IL) Trial Court
(6) Other relevant opinions, orders, findings of fact, and
conclusions of law entered in the case by the courts.
And/or other material the petitioner believes essential to
understand the
petition
Section F
a. Reason for granting writ of certiorari appendix
to ISSUE #1:

• Trial courts ruling of
post-conviction........
.pages
A6-A7
• Indictment counts #3 and 4.. .pages Cl C3
• Illinois Appellate courts ruling of direct
appeal
pages D2 - D4
• Trial Courts Ruling at Trial....pages E2 E7
• Closing arguments at trial....pages E8 E10
b. Reasons for granting writ of certiorari
appendix to Issue #2 - 5.1
• Antoine Moseley affidavit (D)....page D5
-D7
• Dr. Maloney the State’s medical expert
testimony........................... page G2 - G^
• Hal Garfinkel Defense attorney
testimony
,pageG10-G20
c. Reasons for granting writ of certiorari
appendix to Issue #2 - 5.2
• Antoine Moseley affidavit
.page D5 - D7
(D)
• Post-conviction petition prosecutorial
misconduct discovery violation
#2
page D9-D10
• Dr. Maloney medical expert for the state
medical reports
page El - E2
• Dr. Maloney medical expert for the state
testimony........................... page H2 - H6
• Rita Pira the alleged victim
testimony.................
page H10 - HI 3
• Trial Court Ruling at
trial......................... ,pageH14-H15
• The state’s attorney at post-trial motion
sentencing hearing
page H16-H18
• Rita Pira the alleged victim’s testimony at
trial
page H20 - H24
• Trial Court ruling at
trial..........................
.page H28 — H29

• Trial Court Ruling at post-trial motion
sentencing hearing,
.page H30 - H31
d. Reasons for granting writ of certiorari
appendix to Issue #3:
• Rita Pira the alleged victim’s testimony at
.page E2 - E20
trial
• Trial Court ruling at trial...page E23 - E31
e. Reasons for granting writ of certiorari District
Court Judge Gettleman granting motion to
supplement pending federal habeas corpus
petition
.page 1-10
f. Reasons for granting writ of certiorari District
Court Judge Gettleman
ruling
page 1-31

TABLE OF AUTHORITIES
[ISSUE #1]
Smith v. Massachusetts 125 S.ct. 1129 (2005)
Pages
//
Smalis v. Pennsylvania 106 S/ct. 1745 (1986)
Pages &
Currie v. Virginia 138 S.ct. 2144 (2018)..........
Pages ^
Block Burger v. United States 284 U.S. 299, 304 82 S.ct.
180
Pages 10
Speiller v. United States, 31 F.2d 682........... .
Pages //
Evans v. Michigan 568 U.S. at 133 S.ct. 1078
Pages 12_
People v. Cervantes 2013, ILL. App (2d) 110, 191, 2013, 991
N.E. 2d 521, 372, IL. Dec.
214
Pages / 2_
Stow v. Mura Shige, 389 F.3d 880 (9th Cir. 2004).. Pages / 2_
U.S. v. Dixon 113 S.ct. 2849 (1993)........................
Pages (oj 7)1 2Martinez v. Illinois 134 S.ct. (2010)........................ Pages ( 2.; /3
United States v. Martin Linen Supply Co 97 S.ct.
1349.............................................................
.Pages / J
ISSUE #2
Crivens v. Roth, 172 F.3d, (1999)................................ Pages / Ljl^
Bagley, 473 U.S. at 678 1055, CT. 3375..................... Paies I\b) i<?
U.S. v. Agurs, 427, 597, 49 L Ed 2 342, 96 S.ct. 2392
(1976)............................................................................. .Pages lS)iy

People v. Diaz 297 ILL App. 362, 370, 231 IL. Dec. 523 696
N.E. 2d 819 (1988)............................................................Pages j
U.S. v. Gil 297 F.3d 93................................................... Pages
XJ.S. v. Garner 507, F.3d 399 (6th Cir. 2007)................ Pages

iq

Jenck v. U.S. 353 U.S. 657 IL. Ed 2d 1103, 77 S.ct. 1007
1
(1957)
Pages j Q
Giglio v. United States 405 U.S. 154, 92 S.ct. 763, 761, 31 L.
Ed 2d 104,
108(1972)
Pages

Jh

5k
V..-

[ISSUE #3]
U.S. v. Halliday 672 F.3d 462 (7th Cir. 2012).
U.S. v. Bradley 628 F.3d 394 (7th Cir. 2010)...
U.S. v. Durham 645 F.3d 883 (7thCir. 2011).
U.S. v. England 555 F.3d 616 (7th Cir. 2009)..

Pages 3 @
Pages ^ 0
Pages 3 O
Pages ^ Q)

TAjl Se\rcr\H^ akrtui-jr^arju
G-t
7^jl (y^i-kd Qhtird bixbercr bvcropM id n Qf>^\CX % r
Tksu h>j^srS.-hH twrt
ar'ix <x *
JU&
hij^STS-htk- &orr
^ff^rSQT
%jl- /ou^es-rS~hik- £<*<■>rr
%f$>-e<*rS $T^f-e^d]y £,

<>£&.
\k.ts „

~CTur> sd ipl^on
se^en-fuC'T£o\k^0n<l/ e^brzd^u<L^mbSS
lb )S>X\! &<L r)"^ Opin>br>, $r\

SXr\ €. JTj 2* °2- o , CS&€-

JJb p^/)-fl‘oc\ mp^>C£<3/7^y WQX filed/ 7)u^hioA&S4'
Covrrclu^CicUd
Uiju on
3 ^ 2>ajt.
tevr~V

~XZ/f iX A) C-f)or\ ijn <Mf~ 2. £ (A -X tC. Xg^Ofio^

iz.SdQ))
(jj A ^f'hU'Hbryq I An d Sbl~hlb Cy Po> Vjji (S^XXyVt I uc<L
0 a3 (

~h> d

\J £-

Pn/VlSunS • J-n UiO /4^a0

pnCeSSj Q£

Lo^S-k-hih'O^ j qr\d

JIjl U.S
#od i1! ^

.

SlrcLl'\jbfLf PfdvSi b.'iX; Xa 1A0 M/y<^ &f
tkv~r £j ^c-U^

iz.-ik (S)Q-) of H^XCUr,o,i

Cj>m pd£'<L Sh{fv-bS>

/ 9 ^ 2_ $S G/n e^Ae-d ,

fL.

12,0

Statement of Case
The following facts are pertinent to the issues
presented in petitioner’s Writ of Certiorari brief. The facts
are supported by documents included with the petitioner’s
application for Certificate of Appealability that was filed in
the U.S. circuit Court of Appeals, or by documents
contained in the Appendix included with the brief.
Background
The following facts are undisputed: The petitioner met the
alleged victim on May 18, 2005 at a traffic light in
Evanston, Illinois and pulled over his vehicle. They
exchanged phone numbers, and later that night the
petitioner, the alleged victim, and his cousin all went out to
a bar in Chicago. They all drank liquor, and the petitioner
dropped off his cousin, Mr. Azuka Oji, at his condo. The
petitioner testified that he and the alleged victim agreed to
park his car on Ravenswood Avenue in Chicago, where they
consensually kissed and fondled for almost two hours in his
parked car. He testified that once he learned she urinated
in his car they had words that lead to a fight. He admitted
that he slapped her around, and pushed her out of his
parked car half naked. The alleged victim testified that
after they dropped off the petitioner’s cousin, the petitioner
refused to take her home. Allegedly the petitioner drove to
Ravenswood Avenue on his own. Then he beat and raped
her for her 30 minutes after she told her friend, Marcuss,
she was trying to get home. She testified that her call with
Marcuss allegedly caused the petitioner to snap. She also
testified that she urinated in his car, but stated that
occurred out of fear of the petitioner. She testified that after
the alleged rape, he pushed her out of his parked car and
drove away. [See App. to Ground ^ pages E4, E26-E29].
The petitioner’s complaint states that he was arrested the
next day, on May 19, 2005, and taken to Cook County jail in
Chicago, Illinois. He bonded out after seven days, and went
to court. Below are the events that followed.

X.

1.

2.

3.
4.
5.
1.

2.

3.

Trial Court Proceedings
After testifying at trial for multiple counts of
aggravated criminal sexual assualt, attempted
murder, unlawful restraint, and aggravated battery
on 3/26/2009, the petitioner was convicted of one
count of aggravated criminal sexual assualt and
aggravated battery, and was sentenced to fourteen
years for the sexual assualtand four years for the
aggravated battery, and a merged count of
aggravated criminal sexual assualt during the
commission of aggravated battery for total of 18
years.
The location of the court that entered judgement of
conviction that the petitioner is challenging is Circuit
Court of Cook County, Illinois 2600 S. California, in
a bench trial before Honorable Judge Angela Petrone
under criminal docket and/or case number
05-CR-13245.
Sentence and timely notice of appeal date: 5/20/2005
Direct Appeal Proceedings
Under case #109-1452 in the Illinois Appellate Court
1st District affirmed convictions: 6/28/2011
A petition for leave to appeal to the Illinois Supreme
Court was denied: 9/28/2011
Post-Conviction Proceedings
Trial Judge Angela Petrone denied post-conviction
relief under case #05-CR-13245 PC. The petitioner
raised the issues he is raising in questions Presented
for Review, among other issues.
On 4/14/15, after responding to Appellate Counsel’s
motion to withdraw as counsel that was filed on
3/30/15, under case #1-13-3393, the Illinois
Appellate Court 1st District denied the petitioner’s
appeal of his post-conviction petition: 6/16/15. The
petitioner raised issues he is raising in Questions
Presented for Review, among other issues.
Under case #119505 the Illinois Supreme Court
denied the petition for leave to appeal post-conviction

2~

relief: 9/30/15. The petitioner raised issues he is
raising in Questions Presented for Review, among
other issues.
Federal District Court
1. The location of court the petition for Federal Habeas
Corpus was filed in the United States District Court,
Northern Illinois 219 S. Dearborn, Chicago, Illinois
60602, before Honorable Judge Robert Gettleman,
Docket #16-CV-0211. The petitioner raised issues he
is raising in Questions Presented for Review, among
other issues.
2. The District Court ruled the petitioner did not make
a substantial showing that his constitutional rights
were violated. The court also denied on the same day
to issue a Certificate of Appealability: 8/19/2019.
Federal Circuit Court of Appeals Proceedings
1. The location of the court the application for
Certificate of Appealability was the United States
Court of Appeals, Northern Illinois, 219 S. Dearborn,
Chicago, Illinois, before Honorable Judges Michael S.
Kanne, and David f. Hamilton, Docket #19-2778. The
petitioner raised issues he is raising in Questions
Presented for Review, among other issues.
2. The Circuit Court ruled the petitioner did not make a
substantial showing of the denial of a constitutional
right: 6/5/2020.
- The Petitioner is presently incarcerated at
Taylorville C.C, Reg. No. M05986

9.

Reasons For Granting the Writ
The reasons relied on for the allowance of the writ.
Rule 10 and 14.1(h).
There is conflict among the federal and states courts with
the holdings of the courts mentioned below.
The questions presented are of great public importance
because it affects defendants on a nationwide scale ability
to receive fair decisions in judicial proceedings. Similarly
situated as the petitioner is presenting to this court. The
issue’s importance is enhanced by the fact that the lower
courts in this case have seriously misinterpreted all the
cases mentioned in all three questions and/or issues raised.
First: The results were a trial where the petitioner was
exposed to a second Jeopardy, where post-acquittal fact
finding proceedings took place. When the trial court
acquitted the petitioner, but also convicted the petitioner of
two counts even though they shared identical statutory
elements.
Second: The next result was a trial where the petitioner
was not able to make an informed decision when he waived
his constitutional rights to a jury trial and he took a bench
trial based on the evidence his trial counsel told him would
be presented.
Third: The trial court created its own theory of why the
petitioner allegedly assaulted the alleged victim despite
both the petitioner and the alleged victim testifying the
Judges theory never occurred, due to which the State nor
the defense ever argued or presented as facts in this case.
A remand for a hearing in this case on these issues
would promote such courtroom-wide vigilance, not to
mention the insistence of fairness. At such a hearing, the
government should have the burden. Burdens should not
shift to the defendants in this country. Moseley contends
that despite all three issues presented in his reasons for
granting the petition. Both the Illinois and the federal
courts have denied his due process rights. There is clear
conflict among the federal circuits and the state of Illinois
courts. Compelling reasons exist for the exercise of this
I.

c;

court’s discretionary jurisdiction. Not only was the lower
court’s decision erroneous but there is a national
importance for this honorable court to decide the questions
involved within this petition. In this case Antoine Moseley
petitions this court for a writ of certiorari.
Issue #1
ARGUMENTS
A. Double Jeopardy post-acquittal fact finding
proceedings error: [Seelssue #1 Qf
a fi4 ktAS
4
Op C*0./\ J The petitioner contends the state put him
twice in jeopardy. When the trial court erred by exposing
him to double jeopardy. When it continued to deliberate
whether the State met its burden during post-acquittal
fact finding proceedings going to guild or innocence
of count #3 and 4 that share identical statutory
elements. This was equivalent to a retrial for double
jeopardy purposes. Which violates the first protection of the
double jeopardy clause.
It protects against a second prosecution for the
same offense after acquittal even in a single proceeding.
For Judge Gettleman to allow this ruling to stand when he
ruled his Habeas Corpus petition ground #1 Double
Jeopardy was erroneous and it amounts to plain error.
1.1(A) Judge Gettleman acknowledges the two counts only
differed in the types of bodily harm.
[Judge Gettleman]: “The counts differed in the
bodily harm alleged: count 3 alleged “a broken nose and
facial contusions”. Count 4, “rectal tearing”. The trial judge
acquitted on count 3 and convicted on count 4”. [See Judge
Gettleman ruling page 7 line 18-20]
Judge Gettleman acknowledges that the two counts
only differed in the immaterial types of bodily harm. But he
fails to acknowledge the pattern of activity in the material
elements are identical.
“U.S. v. Dixon 113 S.ct. 2849 (1993) Thus if the
pattern of activity is the same, even if there are some

L

UE

differences in detail. This points to a finding of the same
offense. ”
Her injuries were all the different types of bodily
harm, and only one needed to be proven to sustain a
conviction in counts #3 or 4.
1.1(B) Even if the petitioner would have been found guilty
of both counts #3 and 4, the Judge could not give him 14
years for each count and run it consecutively without
violating the 3rd protection of the double jeopardy clause.
Because it protects against multiple punishments for the
same offense.
1.1(C) Because the Illinois Appellate Court rule the rectal
tearing was an immaterial allegation that did not need to
be proven to substantiate a conviction. Just as long as
^
dr
bodily harm of any sort was proven: [See appendix to HTS j U E 7-*pages (D1-D3)]
The Illinois appellate court’s judgement on count #4
is what allowed me to realize that both count #3 and 4 were
identical as far as the material elements that needed to be
proven. Illinois Appellate Court ruling that the type for
bodily harm to wit: broken nose/facial contusions and rectal
tearing. Were both immaterial allegations that did not
need to be proven to sustain either conviction in counts #3
and 4.
1.1(D) [Judge Gettleman’s erroneous relitigation
ruling]
[Judge Gettleman]: “What the double jeopardy clause
barred was “relitigation between the same parties of
issues actually determined at a previous trial...Ashe v.
Swanson — “There was no relitigation”. [See Judge
Gettleman ruling page 8, lines 13-15]
The petitioner contends there may not have been
relitigation between the same parties of issues actually
determined in a previous trial. But there was clearly
relitigation between the same parties of issues actually
determined during post acquittal fact finding
proceedings.
tat *

7-

The petitioner contends when the trial court
convicted him of count #4: “Insertion of his penis into her
anus by force or threat of force and cause bodily harm”,
after it had just acquitted him of the same identical
statutory element offense in count #3: “Insertion of his
penis into her anus by force of threat of force and caused
bodily harm”. [Apdx #1, pages Cl - C3 4f]
He was subjected to post-acquittal fact finding
proceedings going to guilt or innocence which violates the
Double Jeopardy clause. At that pint he was exposed to a
second jeopardy. Smith v. Massachusetts 1245 S.CT
1129 (2005).
“Double Jeopardy Clause prohibition against
re-eocamination of court - decreed acquittal applies
regardless of whether judge’s ruling of acquittal comes in
bench trial ogtrial by jury.”- “How Massachusetts1
characterizes the ruling is not binding on this court.” “What matters is that, as the Massachusetts rules authorize,
the judge (sLl&vated the Commonwealth’s evidence
determined that it was legally insufficient to sustain a
conviction.”— “Subjecting defendant to post acquittal fact
finding proceedings going to guilt or innocence violates the
Double Jeopardy Clause.”— Quote the dissent goes to great
lengths to establish that there was no prejudice here, since
the acquittal was legally wrong and the defendant was
deprived had no available defense. But the Double
Jeopardy Clause has never required prejudice beyond
the very exposure to a second jeopardy. To put it
differently, requiring someone to defend against the charge
of which he has already been acquitted is prejudice per se
for purposes of the Double Jeopardy Clause - even when the
acquittal was erroneous because the evidence was
sufficient. ”
Smalis v, Pennsylvania 106 S.ct 1745 (1986)
1.1(E) in the petitioner’s case if he were initially only
indicted for “insertion of his penis into her anus by force or
threat of force and caused bodily harm”, he was acquitted.
He may not later be indicted for “insertion of his penis into
‘•V

her anus by force or threat of force and caused bodily
harm.” Not if it’s for the same victim, for the same day, and
same moment the incident took place was acquitted earlier
for.
Because the pleas mentioned below bar repeated
prosecution for the same identical act and crime. In the
petitioner’s case there could be no second trial because both
counts #3 and #4 of his indictment show there is clearly an
identity of the statutory elements between both counts.
Currier v. Virginia 138 S.ct*,2144 (2018),” To
prevent the second trial, defendant must show an identity
statutory elements between the two charges against him.”
In proving double jeopardy, petitioner will show an
identity of the statutory elements between the two charges
against him by showing where the form of the charges are
identical. Section 111-3, form of charges provides, a charge
will be in writing and alleged the commission of an offense
by:
1. Stating the name of the offense:
a. In Count #3, the name of the offense is
aggravated criminal sexual assault
b. In Count #4, the name of the offense is
aggravated criminal sexual assault
2. Citing the statutory provisions alleged to have been
violated;
a. Count #3, in violation of chapter 720,Act 5,
section 12 - 14 (A) (2) of the Illinois compiled
statutes 1992 as amended
b. Count #4, in violation of chapter 720,Act 5,
section 12—14 (A) (2) of the Illinois compiled
statutes 1992 as amended
3. Setting forth the nature elements of the offense
charged;
a. Count #3, charge that he committed an act
of sexual penetration: upon Rita Pira , in
that Antoine Moseley inserted his penis
into Rita Pira’s anus by the use of force or

threat of force and Antoine Moseley caused
bodily harm to Rita Pira.
b.
Count #4, charge that he,
committed act of sexual penetration upon
Rita Pira, in that Antoine Moseley inserted
his penis into Rita Pira’s pflwby the use
of force or threat of force and Antoine
Moseley caused bodily harm to Rita Pira.
[Apdx #1, pages C1-C3
]

According to Block Burger: “same elements test,
inquires whether each offense contains an element not
contained in the other; if not, they are quote sayyngoffense
was quote. And double jeopardy bars additional
punishment and successive of prosecution.
Block Burger v. United States 284. 299, 304,S2
S.ct. 180.
The two crimes in the petitioner’s indictment of the
same offense under the Block Burger check.
The petitioner is contending the trial court continued
to deliberate whether the state prove the statutory
elements of count #4 when the court just acquitted him of
count #3 was equivalent for double jeopardy purposes of the
state later indicting him of: “insertion of his penis into her
anus by force or threat of force and caused bodily harm”.
When he was just acquitted of: “insertion of his penis into
her anus by force or threat of force and caused bodily
harm”, in an earlier indictment.
1.1(F) [Judge Gettleman’s erroneous single trial
ruling]
[Judge Gettleman]: “The state presented two theories in a
single trial. That single trial did not put petitioner twice in
jeopardy is quote. [See Judge Gettleman ruling page 8,
lines 15 -16]
1.1(G) the petitioner contends the District Court is
mistaken that there has to be more than one trial for the
petitioner to have been exposed to double jeopardy.

/O'

The fact that the state did not gain a new trial of
second chance to persuade the second trier of fact following
a not guilty finding of count #3 does not mean he was not
subjected to double jeopardy once found guilty of the
identical count #4. Where the trial court in the same bench
trial made further post - acquittal fact finding proceedings
of the material elements of count #3 in an identical count
#4. [See appendix to Issue #1, pages Cl - C3)
1.1(H) it does not have to always be a second trial for
double jeopardy to kick in. It also protects from the
exposure to a second jeopardy.
“Smith v. Massachusetts 125 S.ct. 1129 (2005)
But the Double Jeopardy Clause has never required
prejudice beyond the very exposure to a second jeopardy.
1.1(1) The petitioner contends that the subsequent finding
of guilty of count #4 when he was previously in the same
proceeding found not guilty on count #3 (an identical count
with the identical material elements per the Illinois
Appellate Court) was equivalent to a “retrial” for Double
Jeopardy purposes that protect against post-acquittal fact
finding proceedings. The trial court’s ruling on count #3
determined he had already been put in jeopardy of
“insertion of his penis into her anus by force or threat of
force and caused bodily harm.”
So his jeopardy of the material elements of that
count or any identical count was terminated no matter how
erroneous the court's ruling may have been.
[Justice Butler in dissent]: “Speiller . United States,
31 f.2d 682 the verdict of guilty on the first count is not
based on the other evidence than that on which the jury
found the defendant not guilty on the second count, the jury
said, in substance, that these alleged facts are not true, they
have no legal existence. Where this is an acquittal on one
count of an indictment and a conviction on another count
charging the same crime, the verdict of conviction will not be
allowed to stand unless supported by evidence other than
that on which the acquittal was based.”

\

II

9

“Strengthened and ruled to be controlled by Evans v.
Michigan is People v. Cervantes 20l£, ILL App. 92d)
110, 191, 2013 991, N.E. 2d 521, 372IL. Dec. 214. For
double jeopardy purpose. “The States one trial
one-Jeopardy theory finds no support in the law, generally,
jeopardy terminates in a bench trial when a judge enters a
final judgement of acquittal - “Stout, Brown, Smith
demonstrate that the state in our case is mistaken in its
theory that only a second trier of fact constitutes Double
Jeopardy”.
Although rising out of dissimilar context People v.
Cervantes had issues presented that were related; if not
identical to the petitioners case.
“Stow v. Mura Shige, 389 f3d 880 (9th Cir. 2004)
l.l(J) The petitioner contends that Justice Scalia said it
best. It can be determined before a second trial if a
defendant has been exposed to a Second Jeopardy.
[Justice Scalia] ‘In U.S. v. Dixon, “As he recently wrote,
“Since the double Jeopardy clause protects the defendant
from being twice put in Jeopardy” i.e. made to stand
trial...For the same offense ‘Itpre supposes that sameness
can be determined before a second trial.
1.1 (K) The petitioner would like to bring the courts
attention to Martinez v. Illinois 134 S.ct. 2010 (2014).
Where the Supreme Court ruled the trial judge’s
characterization of his own action cannot control the
classification of the action. The petitioner contends that he
was not charged with broken nose/facial contusion which
was the immaterial allegation of count #3. So the trial court
finding him not guilty of count #3 based on the fact the
state had not proven Pira had a broken nose beyond a
reasonable doubt does not mean the petitioner was not
acquitted of the statutory offense and elements he was
indicted for in Count #3 [Apdx #1, pages C1-C3]
Martinez v. Illinois: “We have previously noted
that the trial judge’s characterization of his own action
cannot control the classification of the action. “We have
emphasized that what constitutes an acquittal is not to be

It

controlled by the form of the Judge’s actions”. It turns on
whether the ruling of the Judge whatever its label actually
represents a resolution correct or not of some or all of the
factual elements of the offense charge. Martin Linen 97
S.ct. 1349.
The petitioner contends that just because the trial
court said it acquitted the petitioner of the charged offense
based on immaterial facts it was not required to prove to
sustain a conviction does not mean he was not acquitted of
the charged offense.
Clearly, post acquittal fact finding proceedings were
violated. The petitioner contends that every argument,
example, and case law he’s presented all support that he
was exposed to a second jeopardy. The trial court erred
when it violated the first protection of the Double Jeopardy
Clause. Then Judge Getttleman committed plain error in
allowing the trial court judgement to stand.

I/

13

[ISSUE 2]
.

B. 5.1(A) Prosecutorial misconduct: Dr. Maloney
undisclosed oral statement [see
<\ nd #5# of C.O.A.
The petitioner contends that Judge Gettleman’s
judgement is erroneous that the petitioner’s strategy would
not have changed had he learned earlier that Dr. Maloney
planned to testify an undisclosed oral statement about his
medical reports he made to the prosecutor earlier that
morning the day of trial. That the prosecutor never
disclosed to the defense. The trial court allowing this to
stand was erroneous and violated the Brady Rule.
It injured the petitioner in ways that created a
reasonable probability that, had Dr. Maloney’s oral
statement been disclosed, there is a reasonable probability
the result of the proceedings would have been different.
Namely; the petitioner would have never waived his
constitutional right to a jury trial, and taken a bench trial
had he been told by his lawyer, that Dr. Maloney planned
to testify to this new oral statement. The injury suffered
was a conviction where the defendant was not afforded the
protection against the prejudice of surprise, unfairness, and
inadequate preparation. Which is what the discovery rule is
for.
For Judge Gettleman to allow this judgement to
stand when he ruled on his Habeas Corpus is erroneous
and it amounts to plain error.
5.1(B) [Judge Gettleman] “Dr. Maloney’s oral statement
that his physician’s notes were incorrect. Petitioner first
claims that the state failed to disclose a statement made by
Dr. Maloney. After examining Doe, Dr. Maloney completed
two sets of physician’s notes. One set had preprinted
patient complaints that he could mark positive or negative.
The doctor testified that he erroneously did not check the
laceration one and mark it positive.” He documented Doe’s
abrasion in the other set of notes. On re-cross-examination,

ground^ of fed*

It

Dr. Maloney testified that he and the prosecutor had
discussed the discrepancy.
[Defense Counsel]: Q: “Did you tell the assistant state’s
attorney in this case, Mr. Welkie, that in fact you had come
upon this epiphany, that you had made a mistake with
respect to the reports generated on May 19, 05, that they
were incorrect?”
[Dr. Maloney]: A: “We discussed it, and I told her I
thought it was incorrect.”
After the doctor finished testifying, petitioner’s
lawyer objected to what he believed was “a clear discovery
violation,” stating that he never received...anything
memorializing or codifying the fact that a state’s witness
had been interviewed with respect to the preparation of his
notes...the prosecutor responded that there were no such
notes because her conversation with Dr. Maloney happened
that morning. The trial judge declined to find the discovery
violation.
She reasoned that the conversation's timing was
irrelevant: petitioner’s lawyer had received the notes years
before and “had ample time to try to clear that up with him
(Dr. Maloney) before today. [See Judge Gettleman’s
ruling page 9, lines 9-24 and page 10 lines 1-3 also
see appendix to Issue #2, 5.1 pages G7 - G14, G18 G19].
5.1(C) The petitioner contends the trial judge in allowing
the state to introduce and use evidence concerning key
medical reports not disclosed to the defense violates Illinois
S.ct rule 415 (D), Brady/Giglio rules, and rules of
disclosure. In the state failed to disclose this very vital oral
statement before Dr. Maloney testified.
United States v. Agurs, 427 U.S. 97, 49. L.ED 2d 342, 96
S.ct. 2392 (1976) People v. Diaz 297ILL. APP. 3d 362,
370, 231IL. Dec 523, 696 N.E. 2d 819 (1998) In cases
subsequent to Brady the Supreme Court delineated the
standard for determining whether undisclosed evidence is
material. Under Brady and its progenies favorable evidence
is material, and constitutional error results from its

. I
/$•

I

suppression by the government, if there is reasonable
probability that, had the evidence been disclosed to the
defense, the result of the proceedings would have been
different”
U.S. v. Gil, 297 F.3d 93; Brady material must be
disclosed in time for its effective use at trial (2nd Cir
2002) Crivens v. Roth 172 F,3d (1999) and Bagley, 473
U.S. 9T 678, 1055, CT 3375.
5.1(D) The petitioner contends that Judge Gettleman’s
judgment is erroneous that his defense strategy would not
have changed had he learned earlier that the doctor
considered the first set of notes “incorrect”. The petitioner
can’t speak to what his defense counsel would have
modified or changed had he taken advantage of the ample
time he had to learn which port the doctor would say was
correct. [See Judge Gettleman’s ruling page 11 lines
1-6].
But the petitioner is saying today just like he swore
in his affidavit, that he would have taken a jury trial and
not waived his constitutional rights to a bench trial. [See
appendix to Issue #2, 5.1 pages D6-D7].
A jury with 12 of his peers weighing the facts as
opposed to one judge, significantly creates a reasonable
probability of a different outcome of the proceedings. The
only facts the petitioner knew about prior to waiving his
right to a jury trial, was what his defense counsel told him,
and what counsel showed him over the years on bond in his
trial file. That was the fact Dr. Maloney’s medical reports
were equivocal and inconsistent. [See appendix to JISJfU
pages G6, G9-G14, G18-G19

1.
The point that petitioner decided to waive his
constitutional rights was one of the most criminal points of
the proceedings. Without full disclosure, the petitioner was
left at a disadvantage and not able to make informed
decisions, on whether to waive his constitutional rights,
which may have affected the outcome of the trial.

/£. JL

5.1(E) [Judge Gettleman]: Undisclosed “He made
effective use of the doctor statement and did not need
earlier disclosure to do this.” [See Judge Gettleman’s
ruling page 11, lines 12-13].
Again, Judge Gettleman is completely disregarding
how the petitioner was unable to effectively use the doctor’s
statements. And his disregarding if the petitioner needs
earlier disclosure to make effective decisions at his trial
where it was his life and limb on the chopping block.
5.2 (A) Prosecutorial misconduct: Doe’s undisclosed
oral statement [See ground #4 of habeas corpus
petition and see issue #5 of C.O.A.]
The petitioner contends that Judge Gettleman’s
judgment is erroneous that the petitioner’s defense strategy
would not have changed had he learned earlier that Doe
planned to testify and undisclosed oral statement she made
to the prosecutor early in the morning the same day she
testified. This was 4 years later about being certain she was
penetrated in both her anus and vagina as opposed to
attempted penetration into both her anus and vagina. She
also told the prosecutor she was now certain the petitioner
used his penis as opposed to being unsure if it was a penis
or finger.
The prosecutor never disclosed this oral statement to
the defense. The trial court allowing this to stand was
erroneous as it violated the Brady Rule. It injured the
petitioner in ways that created a reasonable probability
that, had Doe’s oral statement been disclosed there’s a
reasonable probability the result of the proceedings would
have been different.
Namely: The petitioner never would have waived his
constitutional right to a jury trial and taken a bench trial.
Had he been told by his lawyer Doe planned to testify to
this new oral statement. The injury suffered was a
conviction where the defendant was not afforded the
protection against the prejudice of surprise, unfairness, and
inadequate preparation Which is what the discovery rule is
for. For Judge Gettleman to allow this ruling to stand when

» \

i r?»

he ruled on his habeas corpus is erroneous and it amounts
to plain error.
5.2(B) [Judge Gettleman]: “Doe’s oral statement that she
was certain she was penetrated. Petitioners other Brady
claim is that the state failed to disclose an oral statement
made by Doe. Doe testified on direct examination that she
“heard a condom wrapper tear open”, and then “felt his
penis to my anus”. When the prosecutor ask if petitioners
penis contacted any other part of her, she said, “yes, my
vagina.” Right after the anus. Doe admitted on
cross-examination that she had told others that:
(1) She was unsure if petitioner used his penis or his
fingers, and (2) she was unsure if petitioner penetrated her
vagina or her anus. She nevertheless testified that she was
certain “that petitioner penetrated her both vaginally with
his penis.” When petitioner’s lawyer asked if she had ever
told anyone about her certainty, the following exchange
took place:
[Defense Counsel]: “Who did you tell in connection with
this investigation that you were certain he penetrated you
both vaginally and anally with his penis?”
[Doe]: “Well when I was finally able to come to; you know,
the whole situation myself I was able to admit to my state’s
attorney.”
[Defense Counsel]: “When you say state’s attorney, you
mean Ms. Welkie?”
[Doe] "Yes.”
[Defense Counsel]: “And when did you tell Ms. Welkie the
fact that you were certain that he had penetrated you with
his penis in your vagina and anus, when did that take
place?”
[Doe]: “Today.”
[Defense Counsel]: “The first time any individual ever
learned of the fact that you were certain that he had
penetrated you anally and vaginally with his penis was to
the assistant state’s attorney today?”
[Doe]: “She’s one, yes.”

\

Petitioner claims that the state violated his right to
due process by failing to disclose Doe’s oral statement to the
prosecutor. [See Judge Gettleman’s ruling page 11,
lines 14-23; page 12, lines 1-1 It and page 15, lines
7-19. Also see appvT~PJlXfV/ £r<J2/f>-2- /pages H23-H24,
E1-E2, H4-H6, H10-H12, H14-H18

J.
5.2(C) “U.S. v, Garner, 507F. 3d 399; Crivens v. Roth,
in determining whether a reasonable probability exists,
courts must focus on whether the lack of evidence impaired
the defendant’s ability to receive a fair trial or cast doubt
upon the verdict. A reasonable probability of a different
result is accordingly shown when the government’s
evidentiary suppression undermines confidence in the
outcome of the trial. ”
“U.S. v. Gil, 297 F.3d 93. Brady material must be
disclosed in time for its effective use at trial.”(2nd Cir.
2002)
“The prosecutors failed to turn over key statements and
reports that touched the subject matter violating, the Jencks
rule in Jenk v. U.S. 353 U.S. 657IL. Ed. 2d 1103, 77
S.ct. 1007 (1957) “Bagley 473 U.S. at 678, 105 S.ct 3375
Childs’ testimony forms the heart of the state’s case against
Crivens. The state trial court based its findings of guilt upon
the testimony of Childs - Thus, the credibility of these two
witnesses, while within the sound discretion of the trial
court played a pivotal role in the court’s ultimate decision.
From the moment Doe accused him of this crime she
had stated that he attempted to sexually assault her, and
that she was unsure as to whether or not he used his penis
or a finger in that attempted sexual assault. [See
].

The petitioner prepared his entire defense based on
evidence his defense lawyer was tendered by the state’s
attorney in relation to all Doe’s statements leading up to
trial. He prepared for trial that Doe would testify that he
“tried” to rape her. And that she was unsure whether or

n

2.

not a finger or penis was used to make contact in this
alleged attempt to rape her. [See appendix to
«, pages H4-H6, H11-H12, H14-H18
u
mm].
However, on'the day of the trial she changed her
story as far as what she would testify to.
5.2(E) [Judge Gettleman]: Favorable “Doe’s statement •
was potentially favorable to the defense. Taken in isolation,
it incriminates, taken with Doe’s earlier statements, it may
exculpate.” [See Judge Gettleman’s ruling page 13,
lines 1-2].
The petitioner contends that everything that Doe
said prior to trial and during trial, should have been ruled
on in its totality and if it had been by any reviewing court
the petitioner may have been exculpated, like Judge
Gettleman said. Why would Doe’s oral statement not be
taken with all her earlier statements? Why were they all
taken in isolation?
The petitioner contends that Judge Gettleman
continues with all the reasons Doe’s undisclosed oral
statement was favorable to the petitioner.
[Judge Gettleman] “Her statements to the prosecutor
that she was “certain” conflicted with those earlier
statements and could have been used to impeach her. [See
Judge Gettleman’s ruling page 13, lines 4-5].
The petitioner contends that Judge Gettleman is
acknowledging Doe’s conflicting statements that could have
been used to impeach her.
—Confliction—
[Defense Counsel]: “The first time any individual ever
learned of the fact that you were certain that he had
penetrated ydU'anally and vaginally with his penis was
to the assistant state’s attorney today, correct?”
[Doe]: “She’s one, yes.” [See Judge Gettleman’s ruling
page 15, lines 13-14].
[Judge Gettleman]: “Doe’s statement - unlike Dr.
Maloney’s - did not help explain an existing inconsistency.
It created one. And that inconsistency might have been

x <rs u £^-2-/4".

2.0.

favorable to the defense.” [See Judge Gettleman’s ruling
page 13, lines 6^7].
5.2(F) [Judge Gettleman]: Material “Doe’s statement
was nonetheless immaterial.” [See Judge Gettleman’s
ruling page 13, line 10].
The petitioner contends that, how is it possible that
he can say her undisclosed oral statement was immaterial,
when it went to the heart of every material element of the
charge he was convicted of. Without that undisclosed oral
statement there would be no conviction:
[Material elements of convicted offense]
“Antoine Moseley committed the offense of aggravated
criminal sexual assault in that he: committed an act of
sexual penetration upon Rita Pira. To wit: An intrusion in
' that Antoine Moseley inserted his penis into Rita Pira’s
anus by the use of force of threat of force and Antoine
Moseley caused bodily harm to Rita Pira. In violation of
Chapter 720 Act 5 section 12-14(A)(2) [See appendix to
SSU £^2~
pages C1-C3
].
5.2)G) [Judge Gettleman]: “These questions impugned
Doe’s credibility. They led the trial Judge to acquit
petitioner of the counts alleging vaginal penetration—the
counts alleging anal penetration are a different story. [See
Judge Gettleman’s ruling page 14, lines 13-14 and 20].
The petitioner contends that Judge Gettleman’s
judgement as if he does not see that Pira made the exact
same allegations prior to trial and at trial about both her
vagina and her anus. But yet he rules as if Pira’s
accusations to her vagina were less powerful, than her
accusations to her anus. He had the power to correct the
trial court error by saying, “Hey hold on for one second, You
acquitted him for the vaginal counts because Doe testified
she only became sure her vagina had been penetrated with
his penis the same day of trial. But yet you convicted him
on the anal counts when Doe also testified she only became
sure her anus had been penetrated by his penis the same
day of trial as well as her vagina.”
—Confliction—

Zl.

[Defense Counsel]: “The first time any individual ever
learned of the fact that you were certain that he had
penetrated you anally and vaginally with his penis was
to the assistant state’s attorney today, correct?”
[Doe]: “She’s one, yes.” [See Judge Gettleman’s ruling
page 15, lines 13-14].
[Trial Court’s ruling when it acquitted him on
vaginal counts]
[Trial Court]: “I understand her feelings, but the fact that
she only disclosed this on the day of trial leaves me
reasonable doubt that this count has been proven guilty. So
for that reason count #1 is not guilty” — “I did find the
defendant not guilty on all counts involving contact
between penis and vagina. And that is because Miss Pira
had testified that the first time she really realized that that
had happened was shortly before she testified. Where there
was the inconsistency which she explained about the
vaginal contact, I did acquit the defendant of all those
counts.” [See appendix toJ££ftf£[ #2^fff^H29-A; H30;H31
DJ: “The judge was left with reasonable doubt on those
counts because: (1) Doe “did not tell Dr. Maloney...about
this type of contact. [See Judge Gettleman’s ruling page 14,
line 1-3 also see appendix to
H3-H6.
The petitioner will now prove that every statement
Doe made to the doctor about her vagina was nothing
different than se made about her anus:
—Confliction—
• Anus
Defense: “You told Dr. Maloney that you were unsure as to
whether or not he had penetrated you anally with his penis.
Correct?
[The Court]: “Answer the question, ma’am, is that true,
you said you were unsure about that?
[Doe]: “I did say that, yeah.”
—Confliction—
• Vagina

U.

[Defense]: “And would you also agree that you told Dr.
Maloney also that you were unsure as to whether or not he
had penetrated you with is fingers vaginally, you told Dr.
Maloney those statements too, correct?”
^
[Doe]: “Yes, I’m sure I said that.” [See appendix to 32 S U B 2L/^,
i, page H13 line 4-17
J.
—Confliction—
• Anus and vagina
[Defense]: “Okay. You told Dr. Maloney that you weren’t
sure whether or not it was a finger or his penis, correct?”
[Doe]: “Right.”
—Confliction—
[Defense]: “Okay you told Dr. Maloney that he had
attempted to penetrate your vagina and rectum but that he
had not done that. Is that correct?
[Doe]: “I am not sure if I said that he had not done it but
XSSVE&-/SX
I’m sure I said I wasn’t sure.” [See appendix to
flft pages H4, lines 1-18, page H5, lines 6-12, H21, lines
1 1t16
].
Dr. Maloney’s medical reports mirrored his and Doe’s
testimony of what she told him at the hospital. Because he
checked every box as unsure in regards to both anal and
vaginal, and penis or finger. [See appendix to
4ft pages E1-E2
j.
The petitioner contends that Judge Gettleman can
clearly see that Doe told Dr. Maloney the exact same things
about her vagina and anus. So why would he not rule the
same? The court should have been left with the same
reasonable doubt for the vaginal and anal counts when it
came to what she told Dr. Maloney.
5.2(H) Next, [Judge Gettleman]: “(4) Doe testified...that
she was sure her vagina was penetrated by the defendant’s
penis, but she only became sure of this on the day she
testified. [See Judge Gettleman’s ruling page 14, lines
18-19].
[Judge Gettleman]: “The questions impugned Doe’s
credibility, they led the trial judge to acquit petitioner, of
the counts alleging vaginal penetration.”

7.2.

\

The judge was left with reasonable doubt on those
counts because: (4) Doe testified, that she was sure her
vagina was penetrated by the defendant’s penis, but she
^
only became sure of this the day she testified”. [See /ta A « TO JZSSUE 2L«
pages H29A, H30-H31 as
opposed to H4-H6, H10-H12, H14-H18, E1-E2 4f r,

2,

J.
5.2(1) Proof that Judge Gettleman knew exactly what
Doe testified about becoming certain about. But yet he
failed to correct the trial court’s error of not realizing
Doe became certain the day of trial about both the
anal and vaginal counts.
[Defense Counsel]: Q. “And when did you tell Ms Welkie
the fact that you were certain that he had penetrated you
with his penis in your vagina and anus, when did that
take place?”
[Doe]: A'*- “Today.” [See Judge Gettleman’s ruling
page 12, lines 7-9].
• [Defense Counsel]: “As you testified today you~are
certain that he penetrated you with his penis in your
vagina, correct?”
• And you testified you are certain that he penetrated
1 you anally with his penis, correct? [See Judge
Gettleman’s ruling page 13, lines 14-17].
• “You were sure that he had penetrated you both
vaginally and anally with his penis, you just testified to
that? [See Judge Gettleman’s ruling page 14, lines
1-2].
• “The first time that you ever stated to any individual
that you are certain that my client penetrated you both
anally and vaginally with his penis is today?...The
first time any individual ever learned of the fact that
you were certain that he had penetrated you anally
and vaginally with his penis was to the assistant
state’s attorney today, correct? [See Judge
Gettleman’s ruling page 14, lines 8-12 and see
pages H4-H6, H10-H12,

Aff ,Toxssue'Lici,T_

2,H.

H14-H18, H23-H24, E1-E2

J.
The petitioner contends that Judge Gettleman can
clearly see that Doe told the prosecutor, she became certain
about the exact same things concerning both her anus, and
her vagina on the same day of trial. So why would he not
rule the trial court should have been left with the same
reasonable doubt for both counts? Why would he not correct
such a huge error on behalf of the trial court. But instead
he supports the trial court’s error by making the same error
as if he also does not know what the actual record reflects.
5.2( J) Doe’s oral statement was so material to the defense
that the trial court did the right thing whenifr acquitted the
petitioner on al counts of vaginal assault. So for Judge
w .-Gettleman to rule the reasons why the trial court
acquitted the petitioner were immaterial, when he’s in
a position to correct this erroneous conviction of the anal
counts based on the exact same reasons that exist to acquit
, firvrr the vaginal counts. ■ p Judge Gettleman erroneously ruled that Doe’s
undisclosed oral statement was immaterial. When it’s
the same undisclosed oral statement that cause the
trial court to acquit all vaginal counts.
......
[Judge Gettleman]: Material “Doe’s statement was
nonetheless immaterial.” [See Judge Gettleman’s ruling
page 13, line 10].
5.2(K) Judge Gettleman’s ruling on why Doe’s new
oral statement would not have changed any decisions
the defense could possibly make had it been disclosed
prior to her testifying:
[Judge Gettleman]: undisclosed “Nor was Doe’s
statement disclosed too late for petitioner’s lawyer to make
use of it. The revelation that she had talked to the
prosecutor that day was not a Perry Mason moment that
forced petitioner’s lawyer to revamp the defense strategy.
[See Judge Gettleman’s ruling page 15, lines 1-3].
[Judge Gettleman]: “Knowing about Doe’s newfound
certainty in advance would not have empowered

2,S.

petitioner’s lawyer to do much more damage to her
credibility. Petitioner’s lawyer did not need earlier
disclosure to make effective use of Doe’s change of heart.”
[See Judge Gettleman’s ruling page 15, lines 20-22].
Doe’s earlier statement that the defense and
petitioner thought Doe would testify:
[Judge Gettleman]: “Doe was not so certain that
petitioner used his penis or that he actually penetrated her
anus or vagina when she talked to Dr. Maloney and several
police officers.” [See Judge Gettleman’s ruling page 13,
lines 2-4],
The petitioner contends that Judge Gettleman ruled that:
(1) This undisclosed statement was not disclosed too late
for trial counsel.
(2) That it was not a Perry Mason moment for trial
counsel.
(3) It would not have empowered trial counsel to know
in advance.
(4) Trial counsel did not need earlier disclosure to be
effective.
The petitioner contends if it’s not too late to learn on
the same day of trial, that an alleged rape victim has given
the state an undisclosed oral statement regarding the
material elements of the charged offense, and that her story
has gone from being unsure to absolutely sure, then when
is it too late for Judge Gettleman to declare the undisclosed
oral statement was given too late? Because he has to have a
certain point that he’d rule it’s too late.
Judge Gettleman also disregards that the petitioner
was the one on trial and who waived his constitutional
right to a jury trial, and if someone was going to prison or
losing his life and limb it was him. So why does he not
consider if the statement was disclosed too late for the
defendant to make use of it and say he wanted a jury trial if
Doe’s going to be certain instead of being unsure?
Why does he not consider her revelation, that she
talked to the prosecution that day was in fact, a Perry
Mason moment for the defendant? And if he was informed

before trial, it would have forced him to revamp his entire
defense strategy an say he wants a jury trial if she is going
to be certain instead of unsure?
The least he could have been afforded was to know
what his accuser was going to say before she said it. That
way he would not just throw away his constitutional rights
the way he did. When damning testimony by Doe was
discussed previously between Doe and the prosecutor.

■ ¥

' 4

✓

W

n.

ISSUE #3
C. Insufficient evidence: The trial court erred
when it created its own theory of the case to which neither
the state or the defense argued at trial. Despite the court
previously ruling this theory never existed when it ruled
the alleged victim’s testimony will stand. [See ground #5
of habeas corpus petition and see ISSUE #4 of C.O.A.]
4.4(A) The petitioner contends the trial court created
its own theory of why the alleged crimes occurred. The
petitioner will now show how the trial court was influenced
by improper factors and created its own theory of the case:
[Trial Court]: “The evidence to me shows the
defendant felt like he was entitled to oral sex. He took Rita
Pira around. He spent money on her. He tried to ply her
with alcohol. They are kissing. Now he wants to go to the
next level and she does not want to and this is what made
him angry.” [Apdx
page E31
.]

This was an erroneous theory the trial court created
based on unfounded allegations and inaccurate
information. In fact, during cross examination of the
alleged victim, the trial court ruled that her answer will
stand that the petitioner never asked her for oral sex. Yet,
as the petitioner mentioned above during the trial court’s
ruling it created the theory that by Doe saying no to oral
sex the petitioner beat and raped her.
4.4(B) Cross examination of alleged victim
proving she said oral sex was not an issue or the
theory of why the petitioner allegedly snapped (as
she put it):
[Defense Counsel]: “Don’t you remember that he said to
you I can’t get an erection would you please, I don’t know if
he said please, but would you perform oral fellatio on him?”
[The State]: “Objection.”
[The Court]: “She can answer if that occurred. Ma’am, did
that happen that the defendant said that to you?”

2-S'.

[Doe]: “Absolutely not. There was no question of, there is
absolutely no oral anything.”
[Defense Counsel]: “I didn’t say...”
[The Court]: “All right, she answered your question the
answer will stand.”
[Defense Counsel]: “I didn’t say there was an oral of
anything.”
[Doe]: “There was no question, he never asked me anything
like that. There was never even this situation that you
speak of.” [See appendix
pages E19-E20
fMMPpaiiitoR.]
The petitioner contends what’s so powerful in the
above exchange is that Doe testified twice the petitioner
asking her for oral sex was never the issue in this case. She
actually testified twice he never asked her for oral sex.
What’s also powerful is the court ruled that Doe’s answer
will stand that he never asked her for oral sex.
So, if Doe’s answer stood, then how can the evidence be that
he beat and raped Doe because she refused oral sex, and he
felt entitled to it?
4.4(C) The petitioner contends the prosecution’s case was
never that he asked for oral sex, never that he felt entitled
to oral sex, or that he felt like Doe owed him because he
drove doe around and spent money on her. The prosecutor’s
case was that he snapped because Doe was on the phone
trying to get home with her friend Marcus.
[Trial Court]: “Rita Pira said the defendant snapped when
her phone rang and she told the defendant...she told her
friend Marcus in front of the defendant that she was trying
to get home. She said then the defendant began beating
her, tried to kill her, and raped her.” [See apdx to
XSSv£*2
4K, page E29, lines 10-16
•j
The court used this erroneous theory of being denied
oral sex when the petitioner felt entitled to it. So he
allegedly became so enraged that he attacked Doe. In doing
so, the court made an erroneous but critical decision about
why this entire alleged crime happened after a perfect
night of hanging out on the town between two adults. The

court made this theory despite neither the defense nor the
state ever presenting this to the court. It was at this point
the petitioner was deprived of his due process rights. The
trial judge committed plain error when she based parts of
her ruling on mere speculation. Because it led to the
petitioner being convicted of rape.
It is improper for the trial court to point to and use
points of evidence to find the petitioner guilty, where that
evidence was never introduced and never argued by either
party in this case. Especially when the alleged victim
testified it never happened, and the court ruled the alleged
victim’s answer will stand, that it never happened. This
theory had absolutely no bearing on the facts, testimonies,
or accusations of either party at any time. This clearly
affected the outcome of the case.
Surely, if a judge is not allowed to sentence a
defendant on misinformation, then a judge cannot be
allowed to convict based on misinformation. Based on these
facts, it is not improbable to conclude the trial judge
created an unfounded theory of the case.
4.4(D) U.S. v. Bradley 628 F.3d 394 (Th Cir. 2010): “But
the evaluation of those factors was flawed from the inception
because the court’s assessment of the very first factor—the
nature and circumstances of the offense and Bradley’s
history and characteristics—rest on speculation rather than
evidence bearing ‘sufficient in dica of reliability’.”Pulley
601 F.3d at 665 and this skewed view of the first factor
necessarily colored the court’s view of the remaining
factors.”See U.S. v. Durham 645, F.3d(TK Cir. 2011) and
U.S. v. England 555 F.3d 616 (7th Cir. 2009 and U.S. v.
Holliday 672 F.3d 462 (7th Cir 2012).
4.4(E)-Finally, the petitioner contends he never had the
chance to confront or cross examine the court’s theory that
he felt entitled to oral sex, so he beat and raped Doe
because he spent money and drove her around.
He never had the chance to challenge any of those
errors, or unfounded theories. Because he never heard
about any of them until the trial court judgement and the

20°

trial was over. So he never confronted any state witnesses
about any of those erroneous findings.
In the petitioner’s Federal Habeas Corpus proceedings. The
District Court granted the petitioner’s motion to
supplement pending petition for Federal Habeas Corpus
based on his trial Judge, which had an occasion where she
missed applied the law in another case even though both
the defense lawyer and prosecutors office agreed the
defendant in that case was convicted on the basis of
evidence which experts now know is unscientific and
unreliable. Judge Petrone was overruled by the Illinois
Appellate Court and the defendant Mr. Gray in that case
was set free after twenty-four years.
The District Court granted his motion to Supplement, [see
Judge Gettleman granting motion to supplement
pending Federal Habeas Corpus petition.]
The District Court later denied his Habeas Corpus petition
despite granting his motion to supplement. Which argued
many identical points against his trial Judge as he argued
in his Habeas Corpus Petition.
The issues the petitioner argued within his petition for writ
of certiorari were all argued in his motion to supplement.
The District Court granted the motion to supplement
essentially agreeing with the petitioner that the trial court
did apply the law unconstitutionally. Now the petitioner
asks this very Honorable U.S. Supreme Court to grant his
petition for writ of certiorari.
Conclusion
Mosley petitions this very honorable United States
Supreme court for a writ of certiorari in order to review and
resolve conflicts that exist among the State of Illinois and
its rule of law and the Federal Courts and its rule of law
where conflicts of the courts and their rules create national
concern.
Wherefore this petitioner asks that his conviction for
aggravated criminal sexual assault be vacated and his

21

petition for writ of certiorari should be granted pursuant to
28 U.S.C. Section 1254.
Respectfully submitted
Antoine Moseley
Taylorville CC
I1MM
IL. RT. 29
Taylorville, IL 62568

Date: 10/ 2^7/ ■2-^
Byr-g

2 2--

